         estimony

                    STATEMENT OF
                 ROBERT J. LIEBERMAN
             DEPUTY INSPECTOR GENERAL
               DEPARTMENT OF DEFENSE
                        TO THE
       SENATE SUBCOMMITTEE ON OVERSIGHT OF
    GOVERNMENT MANAGEMENT, RESTRUCTURING AND
              THE DISTRICT OF COLUMBIA
                       AND THE
           HOUSE SUBCOMMITTEE ON CIVIL
         SERVICE AND AGENCY ORGANIZATION
                          ON
          NATIONAL SECURITY IMPLICATIONS
            OF THE HUMAN CAPITAL CRISIS


Report No. D-2001-091        DELIVERED: March 29, 2001



             Office of the Inspector General
                 Department of Defense
Chairmen and Members of the Committees:

I am pleased to be here today to discuss human capital management
issues in the Department of Defense (DoD). My testimony today will
focus on recent audit reports by my office on Defense programs with
workforce issues. The condition of the DoD workforce is of particular
concern to my office, because our auditing and investigative work
constantly reinforces awareness that a properly sized, well-trained
and highly motivated workforce is the best defense against fraud,
waste and mismanagement. In addition, I have been privileged to serve
in the Senior Executive Service for 21 years and currently manage
about 1,200 civilian employees and about 30 military personnel, so I
have personal experience on these matters. My opinions in this
statement reflect those of the Office of the Inspector General, DoD,
but not necessarily those of the Department.

I agree with the General Accounting Office, various recent internal
DoD study groups, the U.S. Commission on National Security/21st
Century, the Chief Information Officers Council, and other analysts
that the Federal Government faces formidable civilian workforce
challenges. For the DoD, human capital issues extend beyond the Civil
Service workforce, affecting both active and reserve military
personnel and many parts of the private sector on which we depend for
national defense materiel and services. The issues that confront DoD
pertain to the most basic elements of workforce management, including:

     - determining the most efficient mix of outsourced versus in-
       house workload;
     - determining the workforce size and skills composition needed
       to handle forecasted in-house workload;
     - authorizing and funding sufficient positions to match workload;
     - recruiting capable personnel;
     - providing effective training throughout their careers;
     - organizing the workforce efficiently;
     - maintaining good morale;
     - measuring and incentivizing productivity; and
     - retaining skilled and experienced employees.

The seven audit reports that I am bringing to your attention today
have a common theme, which is that eleven years of workforce
downsizing, without proportionate workload reductions or productivity
increases, have created or exacerbated mission performance problems
across a wide spectrum of DoD organizations and civilian personnel
specialties. In an age when organizational agility is the watchword
for successful businesses, DoD has been anything but agile, when it
comes to managing human capital. This is partially due to restrictive
personnel management laws and regulations, but also to previous
reluctance to innovate and lack of strategic planning regarding the
civilian workforce.
                                                                         2


Report D-2000-088, DoD Acquisition Workforce Reduction Trends and
Impacts, February 29, 2000
We reported that the DoD cut its acquisition workforce from 460,156
people in September 1991 to 230,556 in September 1999,
a reduction of 50 percent. (Further reductions were made in
FY 2000 and 2001.) If workload had fallen proportionately,
eliminating half of those positions would have been an unambiguously
positive step.

Unfortunately, this has not been the case. From FY 1990 through
FY 1999, the number of procurement actions per year increased about
12 percent, from 13.2 million to 14.8 million. The greatest amount
of work for acquisition personnel occurs on contracting actions over
$100,000 and the annual number of those actions increased about 28
percent from FY 1990 to FY 1999, from 97,948 to 125,692.

We surveyed 14 of the 21 major acquisition organizations and found
this growing imbalance between resources and workload to be a major
concern. Acquisition personnel advised us that the adverse
consequences included:

     -   skill imbalances (9 organizations),
     −   inability to manage requirements efficiently
         (9 organizations),
     -   increased program costs resulting from contracting for
         technical support versus using in-house technical support
         (7 organizations),
     -   difficulty retaining personnel (6 organizations),
     -   reduced thoroughness and timeliness in reviewing acquisition
         actions (4 organizations),
     -   increased backlog in closing out completed contracts
         (3 organizations), and
     -   lost opportunities to develop cost savings initiatives
         (2 organizations).

Our report contained examples of mission performance problems related
to the reduced workforce. The following are illustrative:

     - One command's lack of engineering and quality assurance
presence in plants producing military space launch vehicles caused the
command to express concern about potential quality problems. The
command stated that, when it stopped inspections of all procedures in
some plants, so did the contractor.

     - A Defense agency stated that complaints about the quality of
material received by its DoD customers have increased; however, it has
placed less emphasis on responding to customer complaints because of
workforce reductions.

     - Reduced staffing in a procurement organization caused it to
give little attention to reducing backlogs in processing quality
deficiency reports and equipment improvement reports.
                                                                      3


     - Another organization said loss of expertise retarded efforts to
develop price analysis in a timely manner, and reduced oversight
increased the risk that contracting actions were not properly
executed.

     - Lack of in-house engineering staff at an acquisition
organization caused an increase in customer costs of $20,000 to
$50,000 per each work year of support services for weapons programs
because of the need to hire contractors to perform the work at greater
expense.

     - Another organization stated it was missing opportunities for
savings of $20 to $30 million annually because value-engineering
workshops were drastically reduced by staffing reductions.

There was widespread agreement that, with additional cuts planned,
these staffing problems and performance shortfalls would get worse.

Likewise, there was cause for serious concern in the likelihood of the
DoD acquisition workforce losing about 42 percent of its personnel in
key job series through attrition by FY 2005. Also, there were overall
disconnects between workload forecasts, performance measures,
productivity indicators, and plans for workforce sizing and training.
It is particularly telling that the only DoD strategic management goal
in the late 1990's related to human capital was to cut the acquisition
workforce by arbitrary percentages. Congress shared this primary
focus on reducing numbers of people, but without insisting on or
measuring trends in workload simplification and productivity
improvement.

Report D-2000-100, Contracts for Professional, Administrative and
Management Support Services, March 10, 2000
In March 2000, we reported that every contract action in a sample of
105 items, which involved purchasing 104 million hours of services,
had significant deficiencies. Problems included failure to obtain
competition when required to do so and lack of government cost
estimates. Insufficient training and staffing were root causes of
these deficiencies. We found contracts with nobody assigned as the
contracting officer, due to vacancies. In many cases, the workload
assigned to individuals was unrealistic. For example, one Army
civilian was assigned to manage and perform surveillance on 43
contracts, which he did not do because he was also assigned the full-
time task of assisting in the award of 13 new contracts. At an Air
Force site, one individual was assigned contract surveillance
responsibility on 37 contract task orders in addition to his normal
duties.

We also concluded that contracting personnel training was too heavily
oriented on acquiring equipment and supplies, not services. Because
DoD spends more than $50 billion annually on services, we considered
this to be a major concern.
                                                                   4


Report D-2000-086, Assuring Condition and Inventory Accountability of
Chemical Protective Suits, February 25, 2000
We reported in 1997 that the Defense Logistics Agency lost inventory
control over about 1.1 million chemical protective suits at a Defense
depot. A major cause was that the inventory assurance staff had been
reduced by 74 percent. A follow-up audit indicated that the same
problem developed at another Defense depot after the suits were
transferred there. Again, the failure to properly manage these
crucial readiness items was attributed to lack of resources.

Report D-2000-157, DoD Hazardous Waste Management and Removal Services
in the U.S. European Command, June 28, 2000
Contractors were not performing as specified in contracts for
hazardous waste management and removal at 10 of 14 audited
installations in Europe. U.S. Contracting Officer Representatives had
not been assigned to monitor on-site operations because the
organization responsible for such support was undergoing a 28 percent
staffing reduction at the same time that workload was increasing.

Report D-2000-111, Security Clearance Investigative Priorities,
April 5, 2000
The ability of the Defense Security Service to handle its security
clearance investigative workload virtually collapsed in 1998. The
primary causes were a 42 percent staff reduction and failure of a new
automated case control system. In addition, forecasted workload
reductions did not materialize because more rigorous Federal security
standards were implemented. As a result, there is a backlog of
several hundred thousand initial security clearance investigations and
periodic reinvestigations. This backlog increases the time required
to bring new hires onboard, complicates transfers of employees, keeps
contractors from performing, and increases security risks. About one
third of the 2.1 million DoD and Defense contractor personnel needing
or holding clearances are affected. The audit indicated that future
workload projections remained questionable, complicating the
formulation of viable corrective action plans and Defense Security
Service resource requests. At present, DoD is about one fourth of the
way through a planned 24 month effort to eliminate the backlog, but it
will be difficult to achieve that goal.

Report D-2001-008, DoD Adjudication Facility Requests, October 30,
2000
Another problem in the DoD personnel security clearance area was that
the number of personnel security clearance cases requiring
adjudication was rising faster than most adjudication facilities'
ability to process cases in a timely manner, because workload
projections were questionable and related staffing requirements had
not been fully identified and budgeted. If not corrected, a second
backlog will develop in the adjudication phase of the clearance
process, offsetting hard won progress in decreasing the investigative
backlog.
                                                                   5


Report No. 2001-076, Acquisition of General and Industrial Items,
March 13, 2001
Supply effectiveness at a defense supply center decreased as the
administrative lead-time for buyers to acquire parts and supplies rose
from 85 to 107 days. Inadequate procurement support was largely
responsible for about a 48 percent rise in backorders (137,929 in
October 1998 to 203,663 in September 2000) of general and industrial
items. Although customer demands (requisitions) increased only
slightly for the 2-year period, the purchase requests backlog
increased 40 percent at the center over the same time period. The
time needed to place contract orders grew by 26 percent and overall
supply availability dropped. These supply and acquisition problems
occurred because, over a two-year period, the number of acquisition
personnel declined from 581 to 378 (27 percent), without offsetting
productivity increases or workload reductions.




The Department agreed with all of those reports and initiated various
corrective actions. For example, the Under Secretary of Defense
(Acquisition, Technology and Logistics) acknowledged the need to level
off or perhaps slightly increase the acquisition workforce after
FY 2002. The Department also worked with Congress to gain expanded
authority for pilot personnel programs for the acquisition corps.
                                                                    6


I would like to close with some general observations. Significant
downsizing was necessary to conform to post-Cold War Defense budget
realities, but I believe the Department's performance in providing
better information systems to enhance employee productivity and in
genuinely streamlining administrative processes has fallen far short
of the mark. Those failures to offset the impact of staffing cuts are
widely evident. For example, another recent audit indicated that over
half of the users of the new Standard Procurement System felt their
productivity had not been improved under this $3.7 billion program.
This system was supposed to partially offset the impact of cutting the
acquisition workforce in half, but it has failed to do so. In my
view, the Department needs to step back and reassess what is actually
happening in terms of process changes, productivity improvements and
workload trends. Only then can meaningful strategic workforce
planning be done. Such planning must apply to all segments of the
Department, not just the acquisition corps.

     The Department as a whole also lacks a comprehensive strategy in
place for dealing with pending mass retirements of experienced
managers and workers. Although some organizations, such as the Air
Force, are moving aggressively, ways must be found across the DoD and
in all disciplines to accelerate the normal "on the job" accumulation
of knowledge by individuals and to substitute well crafted training,
especially management development training, for experience. In
addition, we need more emphasis on retaining the best and brightest
middle managers, who will be tomorrow's senior managers, and junior
personnel with managerial potential. Otherwise, there will be a
general drop off in efficiency and productivity in many organizations
toward the middle of this decade. Outsourcing may reduce the scope of
the in-house personnel crisis somewhat, but it is not a panacea. Time
for action is short.

Again, thank you for considering these views.   This concludes my
statement.
